      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                         Washington, D.C. 20201




November 28, 2011

TO:           Donald M. Berwick, M.D.
              Administrator
              Centers for Medicare & Medicaid Services


FROM:         /Gloria L. Jarmon/
              Deputy Inspector General for Audit Services


SUBJECT:      Review of Medicare Payments Exceeding Charges for Outpatient Services
              Processed by National Government Services but Transitioned to Palmetto GBA,
              LLC, in Jurisdiction 11 for the Period January 1, 2006, Through June 30, 2009
              (A-03-10-00005)


Attached, for your information, is an advance copy of our final report on Medicare payments
exceeding charges for outpatient services processed by National Government Services but
transitioned to Palmetto, GBA, LLC (Palmetto), in Jurisdiction 11. We will issue this report to
Palmetto within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
Stephen Virbitsky, Regional Inspector General for Audit Services, Region III, at (215) 861-4470
or through email at Stephen.Virbitsky@oig.hhs.gov. Please refer to report number
A-03-10-00005.


Attachment
   DEPARTMENT OF HEALTH AND HUMAN SERVICES                           OFFICE OF INSPECTOR GENERAL

                                                                     Office of Audit Services, Region III
                                                                     Public Ledger Building, Suite 316
                                                                     150 S. Independence Mall West
                                                                     Philadelphia, PA 19106-3499

November 30, 2011

Report Number: A-03-10-00005

Mr. Bruce Hughes
President and Chief Operating Officer
Palmetto GBA, LLC
P.O. Box 100134
Columbia, SC 29202

Dear Mr. Hughes:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Payments Exceeding Charges for
Outpatient Services Processed by National Government Services but Transitioned to Palmetto
GBA, LLC, in Jurisdiction 11 for the Period January 1, 2006, Through June 30, 2009. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(215) 861-4470, or contact Bernard Siegel, Audit Manager, at (215) 861-4484 or through email
at Bernard.Siegel@oig.hhs.gov. Please refer to report number A-03-10-00005 in all
correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Bruce Hughes


cc:
Mr. Neal Burkhead
Vice President
J11 AB MAC Operations

Ms. Yvonna Ruff
Director
Part A Claims

National Government Services Medicare


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL


 REVIEW OF MEDICARE PAYMENTS
     EXCEEDING CHARGES FOR
OUTPATIENT SERVICES PROCESSED BY
  NATIONAL GOVERNMENT SERVICES
      BUT TRANSITIONED TO
      PALMETTO GBA, LLC,
       IN JURISDICTION 11
 FOR THE PERIOD JANUARY 1, 2006,
     THROUGH JUNE 30, 2009


                         Daniel R. Levinson
                          Inspector General

                          November 2011
                          A-03-10-00005
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with Medicare contractors to process and pay Medicare claims submitted for outpatient
services. The Medicare contractors use the Fiscal Intermediary Standard System and CMS’s
Common Working File (CWF) to process claims. The CWF can detect certain improper
payments during prepayment validation.

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains details regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered. In addition, providers should charge Medicare and other payers, such as private
insurance companies, uniformly. However, Medicare uses an outpatient prospective payment
system to pay certain outpatient providers. In this method of reimbursement, the Medicare
payment is not based on the amount that the provider charges. Consequently, the billed charges
(the prices that a provider sets for its services) generally do not affect the current Medicare
prospective payment amounts. Billed charges generally exceed the amount that Medicare pays
the provider. Therefore, a Medicare payment that significantly exceeds the billed charges is
likely to be an overpayment.

Before May 16, 2011, National Government Services (NGS) was the Medicare fiscal
intermediary for Virginia and West Virginia. From January 2006 through June 2009, NGS
processed approximately 92 million line items for outpatient services, of which 942 line items
had (1) a Medicare line payment amount that exceeded the line billed charge amount by at least
$1,000 and (2) 3 or more units of service. (A single Medicare claim from a provider typically
includes more than one line item. In this audit, we did not review entire claims; rather, we
reviewed specific line items within the claims that met these two criteria. Because the terms
“payments” and “charges” are generally applied to claims, we will use “line payment amounts”
and “line billed charges.”)

On May 21, 2010, CMS announced that Palmetto GBA, LLC (Palmetto), had been awarded the
contract as the Medicare administrative contractor for Jurisdiction 11 in four States: North
Carolina, South Carolina, Virginia, and West Virginia. For Virginia and West Virginia
providers, the effective date for transferring from NGS to Palmetto was May 16, 2011. Because
Palmetto has assumed responsibility for claims paid by NGS, we have addressed our findings
and recommendations to Palmetto for review and comment.

OBJECTIVE

Our objective was to determine whether certain Medicare payments in excess of charges that
NGS made to providers for outpatient services were correct.



                                                i
SUMMARY OF FINDINGS

Of the 942 selected line items for which NGS made Medicare payments to providers for
outpatient services during our audit period, 162 were correct. Providers refunded overpayments
on 85 line items totaling $317,979 before our fieldwork. The remaining 695 line items were
incorrect and included overpayments totaling $5,245,248 that the providers had not refunded by
the beginning of our audit.

Of the 695 incorrect line items:

   •    Providers reported incorrect units of service on 464 line items, resulting in overpayments
        totaling $4,330,829.

   •    Providers did not provide supporting documentation for 91 line items, resulting in
        overpayments totaling $328,670.

   •    Providers reported a combination of incorrect units of service and incorrect HCPCS
        codes on 72 line items, resulting in overpayments totaling $297,570.

   •    Providers billed separately for services on 47 line items for which payment was packaged
        in the payment for the primary service, resulting in overpayments totaling $209,268.

   •    Providers used incorrect HCPCS codes on seven line items, resulting in overpayments
        totaling $34,920.

   •    Providers billed for unallowable services or drugs on nine line items, resulting in
        overpayments totaling $30,313.

   •    A provider billed for the unlabeled use of a drug/biological on five line items, resulting in
        overpayments totaling $13,678.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
NGS made these incorrect payments because neither the Fiscal Intermediary Standard System
nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

RECOMMENDATIONS

We recommend that Palmetto:

    •   recover the $5,245,248 in identified overpayments,

    •   implement system edits that identify line item payments that exceed billed charges by a
        prescribed amount, and

    •   use the results of this audit in its provider education activities.



                                                   ii
PALMETTO GBA, LLC, COMMENTS

In written comments on our draft report, Palmetto generally concurred with our findings and
recommendations and described corrective actions that it had taken or planned to take.
Palmetto’s comments are included in their entirety as the Appendix.




                                              iii
                                                  TABLE OF CONTENTS

                                                                                                                                   Page

INTRODUCTION ...................................................................................................................... 1

          BACKGROUND .............................................................................................................. 1
              Medicare Contractors............................................................................ 1
              Claims for Outpatient Services ............................................................................. 1
              National Government Services and Palmetto GBA, LLC .................................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 2
               Objective ............................................................................................................... 2
               Scope ................................................................................................ 2
               Methodology ......................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ............................................................................. 3

          FEDERAL REQUIREMENTS ............................................................................... 4

          OVERPAYMENTS FOR SELECTED LINE ITEMS ..................................................... 4
               Incorrect Number of Units of Service ................................................................... 4
               Unsupported Services ........................................................................................... 5
               Combination of Incorrect Number of Units of Service and
                 Incorrect Healthcare Common Procedure Coding System Codes .................... 5
               Payment for Packaged Services ........................................................................... 6
               Incorrect Healthcare Common Procedure Coding System Codes ........................ 6
               Services Not Allowable for Medicare Reimbursement ........................................ 6
               Unlabeled Use of a Drug/Biological .....................................................................7

          CAUSES OF INCORRECT MEDICARE PAYMENTS ................................................. 7

          RECOMMENDATIONS .................................................................................................. 8

          PALMETTO GBA, LLC, COMMENTS..........................................................................8

APPENDIX

          PALMETTO GBA, LLC, COMMENTS




                                                                    iv
                                               INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. Part B of the Medicare program helps cover medically necessary services such as
doctors’ services, outpatient care, home health services, and other medical services. Part B also
covers some preventive services. The Centers for Medicare & Medicaid Services (CMS)
administers the program.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
Part B claims submitted for outpatient services. 1 The Medicare contractors’ responsibilities
include determining reimbursement amounts, conducting reviews and audits, and safeguarding
against fraud and abuse. Federal guidance provides that Medicare contractors must maintain
adequate internal controls over automatic data processing systems to prevent increased program
costs and erroneous or delayed payments. To process providers’ outpatient claims, the Medicare
contractors use the Fiscal Intermediary Standard System and CMS’s Common Working File
(CWF). The CWF can detect certain improper payments during prepayment validation.

Claims for Outpatient Services

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains details regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered. 2 In addition, providers should charge Medicare and other payers, such as private
insurance companies, uniformly. However, Medicare uses an outpatient prospective payment
system to pay certain outpatient providers. In this method of reimbursement, the Medicare
payment is not based on the amount that the provider charges. Consequently, the billed charges
(the prices that a provider sets for its services) generally do not affect the current Medicare
prospective payment amounts. Billed charges generally exceed the amount that Medicare pays
the provider. Therefore, a Medicare payment that significantly exceeds the billed charges is
likely to be an overpayment.




1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. In this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC, whichever is
applicable.
2
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.

                                                          1
National Government Services and Palmetto GBA, LLC

Before May 16, 2011, National Government Services (NGS) was the Medicare fiscal
intermediary for Virginia and West Virginia. From January 2006 through June 2009, NGS
processed approximately 92 million line items for outpatient services.

On May 21, 2010, CMS announced that Palmetto GBA, LLC (Palmetto), had been awarded the
contract as the MAC for Jurisdiction 11 in four States: North Carolina, South Carolina, Virginia,
and West Virginia. For Virginia and West Virginia providers, the effective date for transferring
from NGS to Palmetto was May 16, 2011. Because Palmetto has assumed responsibility for
claims paid by NGS, we have addressed our findings and recommendations to Palmetto for
review and comment.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether certain Medicare payments in excess of charges that
NGS made to providers for outpatient services were correct.

Scope

Of the approximately 92 million line items for outpatient services that NGS processed during the
period January 2006 through June 2009, 942 line items totaling $6,748,910 had (1) a Medicare
line payment amount that exceeded the line billed charge amount by at least $1,000 and (2) 3 or
more units of service. 3

We limited our review of NGS’s internal controls to those that were applicable to the selected
payments because our objective did not require an understanding of all internal controls over the
submission and processing of claims. Our review allowed us to establish reasonable assurance
of the authenticity and accuracy of the data obtained from the National Claims History file, but
we did not assess the completeness of the file.

This report includes all items with payments for line items that exceeded the billed charges by at
least $1,000. We will report the results of our review of all items with payments for line items
that exceeded billed charges by $500 to $1,000 separately in report number A-03-11-00005.

Our fieldwork included contacting NGS in Indianapolis, Indiana, and the 62 providers in
Virginia and West Virginia that received the selected Medicare payments.




3
  A single Medicare claim from a provider typically includes more than one line item. In this audit, we did not
review entire claims; rather, we reviewed specific line items within the claims that met these two criteria. Because
the terms “payments” and “charges” are generally applied to claims, we will use “line payment amounts” and “line
billed charges.”

                                                          2
Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   used CMS’s National Claims History file to identify outpatient line items in which
        (1) Medicare line payment amounts exceeded the line billed charge amounts by at least
        $1,000 and (2) the line item had 3 or more units of service; 4

    •   identified 942 line items, totaling $6,748,910, that Medicare paid to 62 providers;

    •   contacted the 62 providers that received Medicare payments associated with the selected
        line items to determine whether the information conveyed in the selected line items was
        correct and, if not, why the information was incorrect;

    •   reviewed documentation that the providers furnished to verify whether each selected line
        item was billed correctly;

    •   coordinated the calculation of overpayments with NGS; and

    •   discussed the results of our review with NGS on May 12, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                             FINDINGS AND RECOMMENDATIONS

Of the 942 selected line items for which NGS made Medicare payments to providers for
outpatient services during our audit period, 162 were correct. Providers refunded overpayments
on 85 line items totaling $317,979 before our fieldwork. The remaining 695 line items were
incorrect and included overpayments totaling $5,245,248 that the providers had not refunded by
the beginning of our audit.

Of the 695 incorrect line items:

    •   Providers reported incorrect units of service on 464 line items, resulting in overpayments
        totaling $4,330,829.

    •   Providers did not provide supporting documentation for 91 line items, resulting in
        overpayments totaling $328,670.

4
 For this audit, we reviewed those line items that met the stated parameters. We applied those parameters to
unadjusted line items. In some cases, subsequent payment adjustments reduced the difference between payments
and charges to less than $1,000.

                                                       3
   •   Providers reported a combination of incorrect units of service and incorrect HCPCS
       codes on 72 line items, resulting in overpayments totaling $297,570.

   •   Providers billed separately for services on 47 line items for which payment was packaged
       in the payment for the primary service, resulting in overpayments totaling $209,268.

   •   Providers used incorrect HCPCS codes on seven line items, resulting in overpayments
       totaling $34,920.

   •   Providers billed for unallowable services or drugs on nine line items, resulting in
       overpayments totaling $30,313.

   •   A provider billed for the unlabeled use of a drug/biological on five line items, resulting in
       overpayments totaling $13,678.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
NGS made these incorrect payments because neither the Fiscal Intermediary Standard System
nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

FEDERAL REQUIREMENTS

Section 1833(e) of the Social Security Act states: “No payment shall be made to any provider of
services … unless there has been furnished such information as may be necessary in order to
determine the amounts due such provider … for the period with respect to which the amounts are
being paid ….”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 23,
section 20.3, states: “providers must use HCPCS codes … for most outpatient services.”
Chapter 25, section 75.5, of the Manual states: “when HCPCS codes are required for services,
the units are equal to the number of times the procedure/service being reported was performed.”
If the provider is billing for a drug, according to chapter 17, section 70, of the Manual, “[w]here
HCPCS is required, units are entered in multiples of the units shown in the HCPCS narrative
description. For example, if the description for the code is 50 mg, and 200 mg are provided,
units are shown as 4 ….”

Chapter 1, section 80.3.2.2, of the Manual states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”

OVERPAYMENTS FOR SELECTED LINE ITEMS

Incorrect Number of Units of Service

Providers reported incorrect units of service on 464 line items, resulting in overpayments totaling
$4,330,829. These overpayments occurred primarily for two reasons:



                                                 4
    •    Forty-one providers billed Medicare for 296 line items with incorrect service units
         involving 48 different drugs, biologicals, 5 and blood products. Rather than billing
         between 1 and 2,431 service units, providers billed between 5 and 10,000 service units.
         These errors occurred because of human error or because the provider’s chargemaster 6
         was incorrect. As a result of these errors, NGS paid the 41 providers a total of
         $4,257,632 when it should have paid $428,744, an overpayment of $3,828,888.

    •    Twenty-five providers billed Medicare for 82 line items with an incorrect number of
         surgical procedures performed. Rather than billing for the number of surgical procedures
         performed, providers either billed the wrong number of procedures or billed for the units
         of time (e.g., minutes, quarter-hours, and hours) spent in the surgical suite. For each of
         the 82 cases, the provider performed between 1 and 3 surgical procedures but billed for
         between 3 and 100 services. As a result of these errors, NGS paid the 25 providers a total
         of $421,170 when it should have paid $77,461, an overpayment of $343,709.

Unsupported Services

Seventeen providers billed Medicare for 91 line items for which the providers did not provide
supporting documentation. The providers agreed to cancel the claims associated with these line
items or file adjusted claims and refund the combined $328,670 in overpayments that they
received.

Combination of Incorrect Number of Units of Service and
Incorrect Healthcare Common Procedure Coding System Codes

Providers reported a combination of incorrect units of service claimed and incorrect HCPCS
codes on 72 line items. These errors resulted in overpayments totaling $297,570. The following
examples illustrate the combination of incorrect number of units of service claimed and incorrect
HCPCS codes used:

    •    One provider billed Medicare for between 12 and 200 units of Baclofen injection
         (HCPCS code J0475, 10 mg/unit). However, the provider should have billed for between
         10 and 60 units of Baclofen intrathecal trial (HCPCS code J0476, 50 mcg/unit), the dose
         actually administered. Similar errors occurred on a total of 17 line items that this
         provider submitted. As a result of these errors, NGS paid the provider $137,170 when it
         should have paid $54,082, an overpayment of $83,088.

    •    Another provider billed Medicare for a procedure with 10 units of service for “platelets,
         pheresis” (HCPCS code P9034). However, the provider should have billed for two units
         of “platelets, pheresis, leukocytes reduced, cmv-negative, irradiated” (HCPCS code
         P9053). Similar errors occurred on a total of 24 line items that this provider submitted.


5
  Biologicals are substances made from a living organism or its products that are used to prevent, diagnose, treat, or
relieve symptoms of a disease.
6
  A provider’s chargemaster contains data on every chargeable item or procedure that the provider offers, including
a factor that converts a drug’s dosage to the number of units to bill.

                                                           5
       As a result of these errors, NGS paid the provider a total of $56,744 when it should have
       paid $21,209, an overpayment of $35,535.

Payment for Packaged Services

Eleven providers billed Medicare on 47 line items for services that were not separately payable
by Medicare. These services were billed as separately payable drugs but were actually ordinary
pharmacy drugs that were packaged in the payment for the primary procedure. These errors
resulted in overpayments totaling $209,268. For example, 2 providers billed Medicare for 28
line items for the lipid formulation of doxorubicin hydrochloride (HCPCS code J9001), but the
drug actually administered was the nonlipid formulation of doxorubicin hydrochloride (HCPCS
code J9000). During the dates of service on which the providers administered this drug,
Medicare included the nonlipid formulation in the payment for related chemotherapy and did not
provide for separate reimbursement under the outpatient prospective payment system. As a
result of these errors, NGS incorrectly paid the provider $84,499.

Incorrect Healthcare Common Procedure Coding System Codes

Providers used incorrect HCPCS codes for seven line items, resulting in overpayments totaling
$34,920. The following examples illustrate the use of incorrect HCPCS codes:

   •   Two providers billed Medicare for 2 line items for 16 units of service with an incorrect
       HCPCS code (HCPCS codes 42405 and J2505) because of keying errors. The provider
       should have billed for 16 units of Ondansetron hydrochloride injection (HCPCS code
       J2405), the drug actually administered. As a result of these errors, NGS paid the provider
       $12,671 when it should have paid $48, an overpayment of $12,623.

   •   One provider billed Medicare for 1 line item for 100 units of service of chemo IV
       infusion (HCPCS code 96413). However, the provider should have billed for 100 units
       of Darbepoetin alfa (HCPCS code J0881), the drug actually administered. As a result of
       this error, NGS paid the provider $11,361 when it should have paid $310, an
       overpayment of $11,051.

Services Not Allowable for Medicare Reimbursement

Providers billed Medicare for nine line items for which the services provided were not allowable
for Medicare reimbursement, resulting in overpayments totaling $30,313. These overpayments
occurred primarily because four providers billed Medicare for seven line items for dental
procedures that were not covered outpatient services. According to the Medicare Benefit Policy
Manual (Pub. No. 100-02, chapter 15, section 150), “items and services in connection with the
care, treatment, filling, removal, or replacement of teeth or structures directly supporting the
teeth are not covered” by Medicare, unless the dental procedure is an integral part of another
procedure covered by Medicare. None of the seven dental services billed was an integral part of
another covered procedure. As a result of these errors, NGS incorrectly paid the providers
$27,365.



                                               6
Unlabeled Use of a Drug/Biological

One provider billed Medicare for the unlabeled use of the biological Retavase for five line items,
resulting in overpayments totaling $13,678. Retavase is approved by the Food and Drug
Administration (FDA) to treat cardiac conditions using a single-use dose (18.1 mg). However,
the provider split a single labeled dose into 25 separate “mini” doses and used each mini dose as
a thrombolytic 7 agent to clean dialysis patient catheters. The provider then billed Medicare for a
full single-use dose of Retavase for each mini dose administered. According to the Medicare
Benefit Policy Manual (Pub. No. 100-02, chapter 15, section 50.4.2):

           An unlabeled use of a drug is a use that is not included as an indication on the
           drug’s label as approved by the FDA. FDA approved drugs used for indications
           other than what is indicated on the official label may be covered under Medicare
           if the carrier determines the use to be medically accepted, taking into
           consideration the major drug compendia, authoritative medical literature and/or
           accepted standards of medical practice.… These decisions are made by the
           contractor on a case-by-case basis. [Emphasis added.]

Providers must identify on their claims that the billed service was for the unlabeled use of a drug
or biological. 8 However, the provider submitted these line items as if the single-use dose had
been administered for the labeled use. Consequently, NGS did not know that the five line items
were for an unlabeled use that required a case-by-case payment determination and incorrectly
paid the provider $13,678.

CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
NGS made these incorrect payments because neither the Fiscal Intermediary Standard System
nor the CWF had sufficient edits in place to prevent or detect the overpayments. In effect, CMS
relied on providers to notify the Medicare contractors of incorrect payments and on beneficiaries
to review their Medicare Summary Notice and disclose any overpayments. 9

On January 3, 2006, CMS required Medicare contractors to implement a Fiscal Intermediary
Standard System edit to suspend potentially incorrect Medicare payments for prepayment
review. As implemented, this edit suspends payments exceeding established thresholds and
requires Medicare contractors to determine the legitimacy of the claims. However, this edit did
not detect the errors that we found because the edit considers only the amount of the payment,
suspends only those payments that exceed the threshold, and does not flag payments that exceed
charges.
7
 The Medicare Claims Processing Manual, Pub. No. 100-4, chapter 8, section 60.2.1.1, identifies “thrombolytics:
used to declot central venous catheters” as a separately billable drug used to treat a patient’s renal condition.
8
    Providers should indicate the unlabeled use of a drug or biological in the remarks section of the claim.
9
  The Medicare contractor sends a Medicare Summary Notice—an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.

                                                             7
RECOMMENDATIONS

We recommend that Palmetto:

    •   recover the $5,245,248 in identified overpayments,

    •   implement system edits that identify line item payments that exceed billed charges by a
        prescribed amount, and

    •   use the results of this audit in its provider education activities.

PALMETTO GBA, LLC, COMMENTS

In written comments on our draft report, Palmetto generally concurred with our findings and
recommendations and described corrective actions that it had taken or planned to take.
Palmetto’s comments are included in their entirety as the Appendix.




                                                   8
APPENDIX
                                                                                                                Page 1 of 2

                          APPENDIX: PALMETTO GBA, LLC, COMMENTS



                                                                                                         Bruce W. Hughes
                                                                                          President and Chief Operating Officer




October 27, 2011


Stephen Virbitsky
Office of Inspector General
Office of Audit Services, Region III
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106-3499

Reference: Draft Report No. A-03-10-00005

Dear Mr. Virbitsky:

This letter is in response to the recent Office of Inspector General (OIG) report entitled “Review of Medicare
Payments Exceeding Charges for Outpatient Services Processed by National Government Services, in
Jurisdiction 11 for the Period January 1, 2006 Through June 30, 2009”, addressed to Bruce Hughes. We
appreciate the feedback your review provided and are committed to continuously improving our service to the
Medicare beneficiaries and providers we serve.

As stated in the report, Palmetto GBA, LLC (Palmetto) assumed full responsibility as the Medicare
Administrative Contractor (MAC) for Jurisdiction 11 effective June 2011. During the audit period approximately
942 line items were selected which had:
         (1)        a Medicare line payment amount that exceeded the line billed charge of $1,000
         (2)        an incorrect unit of service
         (3)        a combination of incorrect units of service and incorrect HCPCS
         (4)        no supporting documentation provided
         (5)        separate billing for packaged services
         (6)        billing for unallowable services
         (7)        use of incorrect HCPCS codes
         (8)        billing for unlabeled use of a drug/biological

Of the 942 selected line items for which Medicare made payments to providers for outpatient services during the
audit period, 162 were correct. Providers refunded overpayments on 85 line items totaling $317,979 before
fieldwork. The remaining 695 line items were incorrect. Thus the following recommendations:

   •   Recover the $5,245,248 identified overpayments.

       Palmetto GBA Response:
       All claims identified in the audit are adjusted for payment recovery and completed as of October 24,
       2011.

   •   Implement system edits that review line item payments that exceed billed charges by a prescribed
       amount.


                                       www.palmettogba.com Post Office Box 100134
                                                  ISO 9001 Columbia, South Carolina 29202-3134
                                                                                                        Page 2 of 2

Stephen Virbitsky
October 27, 2011
Page 2



          Palmetto GBA Response:
          Palmetto GBA has implemented Medically Unlikely Edits (MUEs), Maximum Allowed Units (MAUs),
          and exclusion edits (e.g. dental, cosmetic).

      •   Use the results of this audit in its provider education activities.

          Palmetto GBA Response:
          • Correct coding has been and continues to be discussed in each educational session.

          •   Drugs and Biologicals Webinars instruct providers to identify drugs and biologicals with appropriate
              HCPCS codes.

          •   In the Drugs and Biologicals Webinar providers are instructed to identify drugs and biologicals with
              appropriate HCPCS codes and appropriate numbers of units.

          •   Billing for unallowable services is and will continue to be discussed in CERT education and Top 10
              Claim Submission Errors educational presentations.

          •   Our recent CERT/Claim Submission Errors One-on-One sessions focused on documentation and
              improper payments.

          •   Additional 2011 and 2012 provider outreach and education events include seminars and workshops
              on:
                  o Claims Submission Errors
                  o Billing and Coding
                  o Part B of A Small and New Provider Billing Training
                  o CERT
                  o Top Denials and Inquiries.

In addition, Palmetto GBA will address claims submission errors on a quarterly basis in our Ask the Contractor
teleconferences and monthly meetings with hospital Compliance Officers to increase awareness.

Thank you for providing Palmetto GBA with the opportunity to offer feedback regarding your review.            If you
have any questions, please do not hesitate to contact me.

                                                           Sincerely

                                                           /BRUCE HUGHES/
cc:       Steven Smetak, COTR, CMS
          Daniel Dion, CMS
          Ann Archibald, Palmetto GBA
          Mike Barlow, Palmetto GBA
          Robin Spires, Palmetto GBA
          Sheri Thompson, Palmetto GBA




                                       www.palmettogba.com Post Office Box 100134
                                                  ISO 9001 Columbia, South Carolina 29202-3134
